<html>
<title> - U.N. PEACEKEEPING OPERATIONS IN AFRICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 U.N. PEACEKEEPING OPERATIONS IN AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 30, 2019

                               __________

                           Serial No. 116-30

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov,
                    or http://http://www.govinfo.gov                     
                      
                      
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-134PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="35455a75564046415d5059451b565a581b">[email&#160;protected]</a>                               
                      
                      
                      
                      
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director
                                  
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

                     KAREN BASS, California, Chair

SUSAN WILD, Pennsylvania             CHRISTOPHER SMITH, New Jersey, 
DEAN PHILLIPS, Minnesota                 Ranking Member
ILHAN OMAR, Minnesota                JIM SENSENBRENNER, Wisconsin
CHRISSY HOULAHAN, Pennsylvania       RON WRIGHT, Texas
                                     TIM BURCHETT, Tennessee

                    Janette Yarwood, Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

            STATEMENT FOR THE RECORD FROM COMMITTEE MEMBERS

Prepared statement for the record from Chair Bass................     3

                  INFORMATION SUBMITTED FOR THE RECORD

Information submitted for the record from Representative Smith...     9

                               WITNESSES

Holt, Victoria K., Managing Director, Henry L. Stimson Center, 
  Former Deputy Assistant Secretary of State for International 
  Security.......................................................    17
Das, Chandrima, Peacekeeping Policy Director, United Nations 
  Foundation.....................................................    30
Paul, Dr. Williams, Associate Professor, George Washington 
  University.....................................................    40
Gallo, Peter, Director, Hear Their Cries.........................    51

                   MATERIALS SUBMITTED FOR THE RECORD

Information submitted for the record from Representative Smith...    68

                                APPENDIX

Hearing Notice...................................................    94
Hearing Minutes..................................................    95
Hearing Attendance...............................................    96

            ADDITIONAL INFORMATION SUBMITTED FOR THE RECORD

Written submission for the record from Represtative Smith........    97

 
                 U.N. PEACEKEEPING OPERATIONS IN AFRICA

                        Tuesday, April 30, 2019

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2 p.m., in 
Room 2322 Rayburn House Office Building, Hon. Karen Bass (chair 
of the subcommittee) presiding.
    Ms. Bass. This hearing for the Subcommittee on Africa, 
Global Health, Global Human Rights, and International 
Organizations will come to order.
    The subcommittee is meeting today to hear testimony on U.N. 
peacekeeping operations in Africa. This hearing is in line with 
the overview and orientation that we are providing in this new 
session.
    The hearing will also provide an update on the state of 
U.N. peacekeeping missions in Africa and the role the U.S. 
plays in supporting their efforts on the continent, how we 
should engage the continent, and what that looks like, moving 
forward.
    So, without objection, all members have 5 days to submit 
statements, questions, extraneous materials for the record 
subject to the length limitation in the rules.
    I recognize myself for the purpose of making an opening 
statement. I would also like to thank our distinguished 
witnesses who are here with us today and our ranking member who 
has fought for many, many years to make sure that peacekeeping 
is done well and that the U.S. stays involved.
    We all know that Africa is vast in scope with different 
challenges across its geographical regions. The diversity of 
the continent means that our approach to policy must be 
flexible and strategic when looking to assist the continent's 
needs regionally and independently.
    Due to demographic changes and increased regional 
integration, Africa will be the single largest market in the 
world in a few decades. With the support of successful 
partnerships within Africa and globally, the continent can 
overcome its development and security challenges.
    U.N. peacekeepers aim to protect civilians, promote human 
rights, prevent conflicts, broker peace, and build the rule of 
law.
    The recent attack on a U.N. convoy in Mali killed a 
peacekeeper from Egypt and injured four others. There were also 
10 peacekeepers and another 25 injured at a U.N. camp in Mali 
in January.
    Peacekeepers are oftentimes in harm's way, trying to broker 
peace with radical extremist groups, and peacekeepers in Mali 
have oftentimes been the target of extremist groups.
    There have been successful U.N. peacekeeping missions in 
Africa. These missions also have organized the Burundi 
elections in 1905, monitored the cease-fire between Eritrea and 
Ethiopia, helped implement the Arusha peace agreement between 
the Rwandan armed forces and the Rwandan Patriotic Front, and 
helped ECOWAS investigate human rights violations, monitor the 
electoral process, and implemented peace agreements after the 
Liberian civil war.
    I believe that these missions have been more helpful than 
not but there are challenges including reported crimes of 
peacekeepers. There have been reports of human rights 
violations by security forces in the Sahel, torture in the CAR, 
Congo, and Somalia, sex trafficking rings.
    Peacekeepers are often under equipped. Oftentimes, too few 
soldiers are on the ground. Many of the U.N. personnel on the 
ground are not local, meaning lack of in-depth knowledge of 
cultural institutions and lack of language skills to 
communicate with locals.
    Considering some of the issues mentioned around protecting 
peacekeepers and civilians, I look forward to hearing your 
views and suggestions in your testimony or in the Q&A.
    The numerous attacks in Mali are very concerning and I 
would also like to hear your thoughts on the idea of the 
peacekeepers decreasing their footprint in the DRC.
    These are just a few questions I will pose to our witnesses 
and I look forward to hearing what you think we should do to 
strengthen peacekeeping missions on the continent and around 
the world.
    Last, I am troubled that the administration has not 
emphasized supporting U.N. peacekeeping missions particularly 
in Africa. This administration stated that funding would be cut 
to the U.N.--to the United Nations and that the U.S. will no 
longer provide indiscriminate assistance across the entire 
African continent.
    The U.N. National Security Advisor John Bolton added that 
the U.S. will no longer support unproductive, unsuccessful, and 
unaccountable U.N. peacekeeping missions.
    This is very troubling but I do want to emphasize that U.S. 
relations with Africa has always enjoyed bipartisan cooperation 
here in Congress and we expect that to continue.
    Time after time, when funding was recommended to be reduced 
that directly impacts African countries we worked collectively 
to reinstate this crucial funding.
    [The prepared statement of Chairwoman Bass follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    I now want to recognize the ranking member for the purpose 
of making an opening statement.
    Mr. Smith. Thank you very much, Chairman Bass, and thank 
you to our witnesses for being here, for your leadership but 
also for taking time out of your busy schedules to convey your 
wisdom and insights and recommendations to our subcommittee.
    This is an important hearing so I thank you, Madam Chair, 
for calling us together to talk about peacekeeping in general 
and peacekeeping in Africa in particular.
    As we know, U.N. peacekeeping costs about $7 billion a 
year. Fourteen U.N. peacekeeping deployments are currently 
underway.
    About 100,000 military police and civilian personnel 
comprise those efforts and I think they are extraordinarily 
valuable but there is always gaps and always room for 
significant improvement.
    This subcommittee had been very active on this issue dating 
back to the year 2000 as well as holding two hearings on 
peacekeeping operations in the DRC, which I held, about the 
exploitation of little girls--mostly little girls--in and 
around the Goma area, and we did hear from the U.N. at that 
time. Jane Holl Lute testified and what was a great focus or in 
great focus then was the zero tolerance policy.
    In one of our hearings we even said it is zero compliance 
because so few of the peacekeepers themselves and their command 
structures are taking it seriously enough. We also looked at 
peacekeeping operations in 2012 and, again, in 2016, again 
focusing on the allegations of abuse and the absence of 
accountability and that was another hearing in 2016, and Peter 
Gallo had testified at that hearing.
    Karen, it was just 3 weeks ago that we met with President 
Touadera of the Central African Republic during his visit to 
Congress along with Ambassador Lucy Tamlyn for a very 
productive discussion on a range of topics including the 
security situation in the CAR, the majority of which is not 
under effective control by the government.
    One of the things that struck me about the dialog is how 
clear it was made by the president and his entourage of the 
need for U.N. peacekeepers in that country, which is still very 
much chaotic, and how U.N. peacekeepers could still fill a gap 
so that we do not have to put American troops in harm's way.
    That said, however, recognizing a need is one thing. 
Meeting that need is another, and I think with respect to that 
how well the U.N. peacekeepers are meeting that need in 
countries like CAR but also in South Sudan and the Democratic 
Republic of Congo is still open for question and there is great 
room for improvement.
    We know that the record is mixed in South Sudan, UNMISSS's 
operation. We hear good things about the Mongolian peacekeepers 
who patrol aggressively and give civilians a sense of security.
    But elsewhere the record is, at best, mixed, and in many 
cases very negative. I have received a statement from Bishop 
Nongo of the Diocese of Bossangoa in the Central African 
Republic, which I request be entered into the record, without 
objection.
    Ms. Bass. No objection.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. Thank you. You may recall that Bishop Nongo 
testified before the subcommittee in 2013 in one of our two 
hearings of this subcommittee on the crisis in CAR.
    In his statement submitted for this hearing with his 
unusual--his usual, I should say, frankness, Bishop Nongo 
identifies the CAR as a failed State and one where MINUSCA, the 
United Nations Multidimensional Integrated Civilization Mission 
in the Central African Republic, could only play a critical 
role in helping stabilize.
    Yes, he says one is forced--and I quote him here--to wonder 
about MINUSCA's protecting mission. He recalls shocking 
incidents where neither the government nor MINUSCA forces took 
any action whatsoever despite the prior alert given by 
religious leaders.
    His assessment is that ``MINUSCA has shown weakness 
pertaining to civilians' protection, humanitarian safeguards, 
security access and strict accountability for violations of 
international humanitarian and human rights law,'' closed 
quote.
    In particular--and this is important--he calls out the 
Moroccan, Mauritanian, and Pakistani contingents for what he 
calls inappropriate cooperation and unlawful conduct with ex-
Seleka groups--armed groups--who plunged CAR into the crisis 
back in 2012 and 2013.
    Such cooperation is including taking former Seleka members 
on patrol and with them in armored vehicles as well as 
providing uniforms and ammunition.
    This raises serious questions about the efficacy of U.N. 
peacekeeping operations, at least as far as the CAR goes.
    Another written statement which we have received I also ask 
be included in the record is from Mike Jobbins in Search for 
Common Ground who addresses the failure of peacekeepers to 
protect and what that does to undermine the trust which needs 
to be there among the civilian community.
    He says, and I quote, ``When civilians are killed and 
peacekeepers are viewed as neglecting their duty, the host 
country loses faith in that mission in acting in their best 
interests and resists their presence. Ambiguity is about the 
role of U.N. missions when they will or will not use force and 
encourages public resentment and undermines the degree to which 
they pose a credible threat to armed forces.''
    Another witness, Peter Gallo, who will be testifying today, 
has also previously testified before this subcommittee, has 
been a courageous voice in exposing sexual exploitation and 
abuse conducted in connection with U.N. peacekeeping missions.
    We need absolute zero tolerance when it comes to that 
exploitation.
    I look forward to this hearing--his assessment and that of 
the others who are testifying today, and I anticipate that a 
mixed record when it comes to sexual abuse and exploitation 
which needs to be further addressed. Zero tolerance ought to be 
zero tolerance.
    Thank you, and I yield back.
    Ms. Bass. Thank you very much.
    I would now like to introduce our panel. Victoria Holt is a 
managing director at the Henry Stimson Center and an adjunct 
professor at Columbia University. Her expertise includes 
international security and multilateral tools, peace 
operations, and conflict prevention.
    Previously, she served as the U.S. Deputy Assistant 
Secretary for State for International Security in the Bureau of 
International Organization Affairs from '09 to 2017. In that 
role, she was responsible for policy and guidance for U.S. 
actions in the Security Council and oversaw offices handling 
peace operations, sanctions, counterterrorism, and U.N. 
political affairs.
    She led development of U.S. diplomatic initiatives 
including the 2015 Leaders' Summit on U.N. Peacekeeping hosted 
by President Obama to increase capacities for U.N. operations 
and she previously worked on Capitol Hill on defense and 
foreign affairs.
    Ms. Das serves as the director of peacekeeping policy at 
the Better World Campaign. She is a resident expert on U.N. 
peacekeeping operations and educates Congress and the 
administration on the value of peacekeeping as an effective 
part of the U.S. national security toolbox.
    She spearheads thought leadership and authors policy papers 
and field reports on U.N. peacekeeping. She also served as a 
special advisor for the U.N. High Level Panel on humanitarian 
financing and providing an American perspective to the panel 
and her expertise on conflict resolution.
    Previously, Ms. Das worked at the U.S. Institute of Peace. 
Thank you for joining us.
    Paul Williams is an associate professor in the Elliott 
School of International Affairs at George Washington University 
where he is also associate director of the security policy 
studies.
    Dr. Williams received his Ph.D. in international politics 
from the University of Wales. His research focuses on the 
politics of contemporary peace operations and the dynamics of 
war and peace in Africa. He previously worked at the 
Universities of Warwick and Birmingham in the U.K.
    He has been a visiting scholar at Georgetown University and 
the University of Queensland, a visiting professor at Addis 
Ababa University and a fellow with the Woodrow Wilson Center.
    Mr. Gallo is a qualified lawyer--glad you are not an 
unqualified lawyer--admitted to practice in Scotland, Hong 
Kong, and New York. He has an MBA and an LL.M. in international 
criminal law.
    He spent 19 years as an investigator based in Hong Kong 
working on investigations in some of the most corrupt countries 
in Asia and was a leading authority on the identification and 
detection of money laundering.
    In 2011, he was recruited by the U.N. as an investigator in 
the Office of Internal Oversight Services investigations 
division in New York, the office that is supposed to 
investigate corruption, fraud, and other criminality in the 
organization.
    After his insights and personal experience there, he became 
an outspoken critic of the United Nations, particularly about 
the manner in which corruption is covered up.
    I want to thank all of our witnesses for being here today 
and I would like to ask you to summarize your written 
testimony, and we do not have a clock that you can all see but 
I have a stopwatch here. So everyone will have 5 minutes and 
then we will begin a round of Q&A.
    Ms. Holt.

  STATEMENT OF VICTORIA K. HOLT, MANAGING DIRECTOR, HENRY L. 
STIMSON CENTER, FORMER DEPUTY ASSISTANT SECRETARY OF STATE FOR 
                     INTERNATIONAL SECURITY

    Ms. Holt. Chair Bass, Ranking Member Smith, and 
distinguished members of the committee, it is a genuine 
pleasure to be here. Thank you very much, and I thank you for 
the interest in this topic.
    It is one this committee has had a long history on, both 
the nature of peacekeeping, the link to U.S. interests, and the 
constant interest and demand for reform and modernization.
    I have served in many roles. I have been a researcher, I 
have been policymaker, and I most recently was a diplomat at 
the Department of State.
    So my comments really today come from that experience of 
seeing missions up close and the ongoing desire to reduce the 
gap between the aspirations of a Security Council resolution 
and actually delivering in the field.
    We will never be done, but I will say this moment is a 
really awesome chance to move reforms forward; I have much in 
my comments about that.
    You know the basics. The U.S. is a permanent member of the 
Security Council, which is focused on threats to international 
peace and security. Peace operations are probably the best 
known thing that the U.N. does.
    We have over a 100,000 civilians, military, and police in 
the field today in 14 missions, often in remote and fragile 
States.
    Over 120 countries contribute to these. Those numbers are 
huge. I will also note the U.S. provides about 40 of these 
total officers. So it is really an opportunity where you see a 
form of burden sharing. We are the largest financial 
contributor.
    It also is a direct interest to the United States that 
peacekeeping is successful. It avails with stability and 
conflict prevention. It addresses countries that are under 
threat of violence and extremism and it also supports goals of 
democracy and rule of law.
    It also supports our values. It promotes human rights and 
tries to address humanitarian crises, migration and refugee 
flows, and in places like Liberia stepped in to also try and 
prevent the expansion of the Ebola crisis in that country. So 
both for security interests and our values, we value the U.N.
    I saw this up front when I was in State. Today, Co-te 
d'Ivoire is a successful West African country with the highest 
growth rate in the region. We soon forget that in 2010-2011 it 
almost went into civil war when that election resulted in two 
people believing they were president.
    The small U.N. mission there quickly bunkered down, 
provided the election outcome and validated it, and stood firm 
as the political process moved forward. War was averted.
    Likewise, on the values side, we have seen in South Sudan 
when that new country was ushered forward as the first country 
in the last 10 years, a small mission--a large mission was 
deployed to support peace building.
    But in December 2013 things changed. Civil conflict broke 
out and people fled to the U.N.'s compounds. They opened the 
door. In the town of Bor, for example, a few months later an 
American named Ken happened to be the civilian in charge of 
that compound. A military crew of 80 showed up with one of the 
government ministers and demanded to go in. They intended to 
attack the civilians there. He turned around and said, ``Close 
the door.'' He was unarmed. He was trained as a New York Police 
cop. He did the right thing. He saved lives that day and he 
risked his own to do so.
    So I think these kinds of examples are really important to 
us. Whether it is in Mali and Central African Republic, what we 
see in Somalia or Congo, every one of these missions has 
details of real people in the field.
    But reform is hugely needed and this is what I want to get 
to. Supporting political processes and solutions, governments 
need to abide by the agreements they make when they invite the 
missions in.
    We, as diplomats, you, as leaders, can help reinforce those 
political agreements and if they are not working, ask why. 
Protection of civilians on the ground as well as from any bad 
behavior by the peacekeepers remains a top priority. Ninety-
five percent of peacekeepers today serve under those mandates. 
And then gaps in capacity--the lack of medical health or being 
able to fly where you need to, French-speaking police officers 
who are women--it is wide. It is getting better.
    The U.S. has been a leader on the reform and modernization. 
There has been a series of Presidential summits kicked off by 
the U.S. and led by other countries, high-level reviews, and 
now ongoing series of resolutions through the Security Council 
including on performance and accountability--ones that this 
committee had paid attention to.
    So what is our challenge? We need that continued U.S. 
leadership and we need it strong, and we have a bit of a 
challenge. There is a financial crunch coming at the U.N.
    The secretary general has just issued a very thick report. 
He is worried that most of the missions do not even have 3 
months to keep their budgets operating. We have also seen 
troop-contributing and police-contributing countries not get 
reimbursed for their performance in the field, not because they 
did not do well but because there is not enough money.
    So the U.S. Congress could help with this. We could pay our 
full assessment which is, roughly, 28 percent of the budget. We 
could pay back the arrears and lift the congressional cap, the 
most during both the Bush and Obama Administrations was lifted 
by Congress. If you want us to get to 25 percent, let us put 
the State Department on notice. Let us ask why they failed at 
the negotiations last year and let us start now with a national 
push to get that done.
    But let us not accrue arrears in the short run. That helps 
nobody. It does not get our reforms and it gives every country 
that opposes us a talking point. I saw this in the earlier 
negotiations that Ambassador Holbrooke and, Congressman Smith, 
you were involved in.
    So, finally, the U.N. needs our leadership. We are often 
the best at assessing and criticizing as well as being 
practical and inspiring to these missions. I urge you to go to 
the field and see them yourself.
    Myself and my colleagues would be more than happy to help 
set that up and work with your teams on this, and let us also 
put some more diplomats in New York. They are shorthanded with 
only two of the five posts in New York there and working on the 
Security Council to be able to give voice and vote and 
enthusiasm to the modernization and reform we need.
    Thank you.
    [The prepared statement of Ms. Holt follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Thank you very much, and I would just say before 
I go on to the next guest, you know, for my colleagues who are 
new on the committee, an opportunity to go visit peacekeeping I 
think should be high on your agenda and we can make sure that 
happens.
    Ms. Das.

   STATEMENT OF CHANDRIMA DAS, PEACEKEEPING POLICY DIRECTOR, 
                   UNITED NATIONS FOUNDATION

    Ms. Das. Chairwoman Bass, Ranking Member Smith, members of 
the subcommittee, I am honored to be here today to testify 
about the value of United Nations Peacekeeping efforts in 
Africa.
    Having travelled to six U.N. peacekeeping missions in 
Africa over the last 5 years, I believe continued U.S. 
financial support for these operations is an investment worthy 
of American taxpayer dollars.
    U.N. peacekeepers serve 100 million people aiming to create 
stability in fragile States. Each mission is tasked with 
varying responsibilities authorized by the U.N. Security 
Council.
    Some missions serve as buffers between two parties. Other 
missions are more complex and are tasked with protecting 
civilians, monitoring human rights, facilitating delivery of 
aid, training security sector, and building the capacity of 
government institutions and providing electoral assistance.
    They do this at a relatively modest cost. The U.N. 
peacekeeping budget covers more than 100,000 personnel deployed 
at 14 missions, which half are in Africa.
    The total cost of U.N. peacekeeping is $7 billion a year of 
which the U.S. is assessed for $1.8 billion. For comparison's 
sake, this is 1 percent of the U.S. military spending.
    According to the report released by the GAO last year, it 
is eight times less expensive for the U.S. to financially 
support U.N. peacekeeping missions than to deploy U.S. forces 
alone.
    Last year, I travelled to Mali, home to the third largest 
U.N. peacekeeping mission in the world. After a military coup 
in 2012, well-armed radical Islamist groups linked to al-Qaida 
took over large sections of the country. These extremists 
imposed Sharia law, carrying out stonings and amputations as 
punishment.
    In Timbuktu, once a famous center of trade and learning, 
extremists destroyed the historic town's library and 
mausoleums, antiquities now lost to the world forever.
    After French forces intervened at the request of the Malian 
government, U.N. peacekeepers were tasked with stabilizing the 
country. Sixteen thousand peacekeepers covered an area so vast 
it is equivalent to the territory from New York to Florida.
    However, terrorist organizations linked to ISIS and al-
Qaida continue to threaten and manipulate inter-ethnic disputes 
to their advantage.
    Just yesterday, ISIS leader Baghdadi pledged allegiance to 
the ``brothers'' in Mali and Burkina Faso, highlighting the 
security challenges in the region. Recently, the conflict has 
shifted to the center of the country and last month 160 
villagers--men, women and children--were massacred by 
extremists.
    Despite these horrifying conditions, there are signs of 
hope. The presence of U.N. peacekeepers allow for U.N. agencies 
like the World Food Program to partner with 40 villages to grow 
their own food and make them less dependent on local militias.
    I visited a farm supported by U.N. peacekeepers that 
provided food for families and gave youth an alternative 
opportunity to the extremist ideologies that surrounded them.
    Also, I have witnessed the work of U.N. peacekeepers in 
Central African Republic. In 2014, it was the 20th anniversary 
of the Rwandan genocide and the mission allowed the 
international community to live up to the promise of never 
again when it helped contain vicious sectarian violence between 
Christian and Muslim communities. Amnesty International 
reported that the U.N. mission saved many lives and prevented 
much bloodshed.
    In South Sudan, where a civil war once raged, tens of 
thousands of civilians came to the U.N. compounds to seek 
shelter. The mission opened its doors serving large numbers of 
people who otherwise would have been directly targeted, and 
peacekeeping forces continue to protect nearly 200,000 people 
at six sites around the country.
    I want to take a moment now to address some of the 
misconceptions--one, that peacekeeping missions last forever. 
They do not. In fact, the last 2 years peacekeeping missions in 
Liberia and Cote D'Ivoire closed after peaceful democratic 
elections and this coming October the mission in Haiti is set 
to close.
    And No. 2, the U.N. peacekeeping is incapable of change. 
U.N. Secretary General Antonio Guterres has instituted a series 
of reforms backed by majority member States aimed at greater 
accountability, transparency, and clarity in peacekeeping.
    In partnership with the U.S., the secretary general is 
working to modernize the U.N. None of this is possible, 
however, without full U.S. engagement and support. The U.S. is 
currently the biggest financial donor for U.N. peacekeeping 
paying 27.8 percent of the peacekeeping budget.
    In December, this rate was lowered from 28.4 and was agreed 
to by the Trump administration. However, since the mid-1990's 
U.S. law has arbitrarily capped U.S. contributions at 25 
percent.
    As a result, the U.S. currently owes $750 million in 
arrears, contributing to a cash crunch. This means that allies 
like Ethiopia, Rwanda, and India are not receiving full payment 
for the thousands of police and troop contributions of 
peacekeeping, in comparison to the U.S. that only contributes 
40 peacekeepers.
    Peacekeepers go where no one else will. They protect the 
world's most vulnerable in some of the world's most challenging 
places. We ask that Congress honor our financial obligations to 
U.N. peacekeeping and allow us to pay at our assessed rate. It 
not only serves American national security interests but it is 
the right thing to do.
    [The prepared statement of Ms. Das follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Thank you very much.
    Dr. Williams.

STATEMENT OF PAUL WILLIAMS, PH.D., ASSOCIATE PROFESSOR, GEORGE 
                     WASHINGTON UNIVERSITY

    Mr. Williams. Thank you, Chair Bass, Ranking Member Smith, 
members of the subcommittee. Thanks for inviting me to testify 
at this hearing today.
    I am an academic who has studied the politics and 
effectiveness of peace operations in Africa and elsewhere for 
over two decades now and my testimony today focuses on 
partnership peacekeeping in Africa--that is, collaboration 
between different international organizations and States to 
deliver effective field missions, and specifically it 
highlights the roles played by missions that are mandated and 
authorized by the African Union and explains why the United 
States should support the use of U.N.-assessed contributions to 
finance AU peace operations that have been authorized by the 
Security Council.
    Since 2003, the African Union has proved that its peace 
operations provide a global public good by helping to keep the 
peace in Africa. A strong and effective African Union is, 
therefore, good for Africa but it is also good for the world.
    The AU has now mandated and authorized 16 peace operations 
ranging from small observer missions to large forces engaged in 
stabilization, counterinsurgency, and even counterterrorism 
activities against groups like al-Shabaab, Boko Haram, and the 
Lord's Resistance Army.
    By 2015, African States deployed nearly 70,000 uniformed 
peacekeepers across Africa, nearly 50,000 in U.N. missions and, 
roughly, 22,000 in Somalia, and this was partly thanks to 
training programs like the U.S. Global Peace Operations 
Initiative.
    AU missions have carried out critical peace and security 
tasks that are not usually performed by U.N. peacekeeping 
operations including counterinsurgency efforts as in Somalia 
and Mali, and this is likely to become even more important as 
more Islamist fighters are moving from the Middle Eastern 
theater into north Africa, the Sahel, and elsewhere in sub-
Saharan Africa.
    However, AU missions have suffered major capability gaps 
related to finance, logistics, and mission support. These have 
been partially filled by external partners, notably, the United 
Nations and European Union as well as the U.S.
    But AU forces were unable to sustain themselves in the 
field and were rehatted into larger U.N. missions in Burundi, 
Darfur, Mali, and the Central African Republic.
    Nevertheless, as the AU has developed and strengthened, 
future peace operations in Africa are likely to be either 
mandated or authorized by the AU with U.N. peacekeeping 
missions being rehatted African missions.
    It is, therefore, imperative that we find a long-term 
solution for financial AU peace operations in part to ensure 
that U.N. peacekeeping is not being set up to fail when it is 
forced to take on mandates and tasks that run counter to its 
principles of impartiality, consent, and minimum use of force.
    To help do this, the African Union established a Peace Fund 
recently which generates revenues via a 0.2 percent levy that 
is imposed on eligible goods imported into the African 
continent.
    So far, that has raised $105 million. This could pay for 
some of the costs of the AU's missions but not the whole bill. 
AMISOM in Somalia, for example, costs about $1 billion a year.
    For the last decade, the U.N. Security Council has debated 
whether it should pay the rest through the U.N.'s assessed 
peacekeeping contributions.
    The AU has tried to lock in this principal because it would 
move beyond ad hoc means of support and provide a more 
predictable framework which could be the basis for long-term 
capacity building and institutional development for the African 
Union.
    This makes sense. The United States should empower the 
African Union by supporting its access to predictable and 
sustainable finance. This would be in line with previous 
bipartisan U.S. policy, which was based on four preferences: 
one, ensuring that the U.N. Security Council remains the 
primary multilateral decisionmaking body for matters of 
international peace and security; No. 2, ensuring that U.N. 
funds are used in an accountable and transparent manner; three, 
that decisions on how to respond to particular crises are taken 
on a case by case basis; and four, that the African Union 
should pay some if not all of the bills for its peace 
operations.
    Instead of supporting the African Union with ad hoc mixture 
of bilateral programs and trust funds, which has produced 
highly uneven capabilities available to different AU missions, 
the United States would be better served by supporting a more 
predictable framework, namely, using U.N.-assessed 
contributions to finance AU peace operations that have been 
authorized by the Security Council.
    This would do three things. No. 1, it would empower the 
African Union Commission to better administer and oversee 
African peace operations and it would allow international 
partners to hold a single entity accountable for the mission's 
performance and effectiveness in the field.
    Two, it would improve African capabilities and their 
adherence to international human rights and humanitarian law 
for all the contributing countries across the board, and third, 
it would actually reduce the overall cost to the United States 
compared to providing the same capabilities on a bilateral 
basis to the respective contributing countries because the U.S. 
pays about 28 percent of the peacekeeping bill and other 
countries pay 72 percent.
    Now, at present, different elements of U.S. policy toward 
peace operations in Africa are not coherently aligned. The 
stated goal of supporting effective and accountable missions is 
being undermined by the lack of a coherent diplomatic strategy, 
a failure to empower the African Union, and a failure to pay 
our assessed contributions in full and on time.
    The U.S. should pay its peacekeeping dues in full and on 
time. Refusing to do so undermines our credibility and 
influence at the United Nations. It undermines the principle of 
international negotiations and it hurts the U.N.'s major 
contributing countries, many of whom are key U.S. partners in 
the field.
    Thank you.
    [The prepared statement of Mr. Williams follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Thank you.
    Mr. Gallo.

      STATEMENT OF PETER GALLO, DIRECTOR, HEAR THEIR CRIES

    Mr. Gallo. Thank you, Chairman Bass, Ranking Member Smith, 
and distinguished members of the committee.
    I spent 4 years as an internal investigator in the U.N. and 
I have since spoken extensively about the corruption and the 
lack of accountability in the organization, and I know that the 
U.N. and others like to portray me as some kind of disenchanted 
extremists.
    So I like to often begin by deliberately misquoting 
Shakespeare, specifically, Marc Antony's speech about coming to 
bury Caesar, not to praise him.
    Being critical of the U.N. in any way is often interpreted 
as an attempt to destroy the organization. Nothing could be 
further from the truth. We are not anarchists.
    Of course, there is a need for peacekeeping but the U.N. is 
wilfully blind to the harm that that peacekeeping brings with 
it and my concern for the future, as Marc Antony went on, is 
that the evil that men do lives after them; the good is oft 
interred with their bones. And nobody wants the U.N. to be more 
remembered for the sexual abuse of children in Africa rather 
than the reason the organization was there in the first place.
    Given my background, I focus on accountability and I 
appreciate that the committee is concerned with the lack of 
independent information about what is actually happening in the 
field missions. Those two are far from unrelated.
    Peacekeeping, by its very nature, takes place in remote 
areas not well covered by an independent free press, leaving 
the outside world with the U.N. as the sole source of 
information.
    But as was seen in the Central African Republic, the staff 
working in those missions will not speak out about anything no 
matter how egregious, corrupt, or wasteful it may be, and when 
they do there are plenty of case studies as to what happens, 
like the cases of Miranda Brown, Anders Kompass, and Emma 
Reilly.
    U.N. peacekeeping has to be understood on the ground in 
terms of the U.N. culture, which involves, on one hand, a lack 
of accountability for senior staff and those who enjoy the 
patronage, and a lack of whistle blower protection for those 
who do not.
    In the U.N. it is not what you do that matters; it is who 
you know, and that applies for career advancement and the 
prosecution of misconduct. It is carrot and stick, and the most 
important rule in the United Nations, what I call the prime 
directive, is to protect the U.N.'s image above all else.
    It is not the scale of the sexual abuse and, particularly, 
the child rape but the failure to deal with it that is 
seriously undermining the U.N.'s credibility.
    Now, Hear Their Cries has been criticized for our estimate 
60,000 women and children raped or sexually abused by the U.N. 
personnel over 10 years. That figure is an estimate, but 
neither the U.N. nor anyone else is willing to debate it. And 
shocking as though it may be, 60,000 may be a conservative 
estimate.
    Still, the number of cases that are acknowledged by the 
U.N. remains tiny. But the U.N. does not report all the 
complaints. They are very good at filtering out most of them at 
the assessment stage whereas journalists seem to have very 
little difficulty finding victims when they look for them.
    Why are more of these rape cases not reported? Because U.N. 
staff are not stupid and they know what will happen if they do. 
One, any investigation will fail to establish wrongdoing, and 
two, the organization will retaliate against the staff member 
for having reported it.
    In the United Nations, whistleblower protection does not 
work because the U.N. does not want it to work. So the staff 
who report wrongdoing are committing career suicide. Staff will 
look at cases like Miranda Brown and ask why should they risk 
it.
    Now, the U.S. Government has tried to pressure the U.N. 
into strengthening whistleblower protection. These provisions 
have been unsuccessful. The U.N. Ethics Office continues to go 
through extraordinary lengths never to find retaliation and 
when they do, OIOS, instead of investigating it, simply asks 
the subject to come up with a plausible explanation for its 
actions, essentially abdicating any investigative 
responsibility. But the investigations director claims this is 
to, and I quote, ``keep the Americans off our backs.''
    With regard to the misconduct by military personnel, in the 
CAR the U.N. knowingly deployed ill-disciplined troops with a 
history of human rights abuses. Unsurprisingly, they turned out 
to be so bad they had to be withdrawn. But why were they 
deployed in the first place?
    Given the financial incentive, any competent investigator 
would consider the possibility of bribery influencing that 
decision. But the U.N. will not consider that possibility, far 
less investigate it.
    Ironically, it was not those peacekeepers who were 
responsible for the child sex abuse in 2015. That was only 
exposed because a single U.N. staff member, Miranda Brown, was 
prepared to stand up against an abusive authority.
    That may have sparked off a media firestorm, focused world 
attention on the CAR, and journalists began finding hundreds of 
other SEA victims.
    The U.N. was forced to act. The Deschamps enquiry was 
empanelled. But, ultimately, the only thing that is changed is 
that Miranda Brown has lost her career.
    Now, the U.N. claims that the allegations in the CAR were 
fully and professionally investigated at a cost, by the way, of 
half a million U.S. dollars, though they established next to 
nothing.
    But as early as October 2016, OIOS was already undermining 
the integrity and the credibility of complainants in the town 
of Dekoa. I am aware of an internal review having been carried 
out within the OIOS into the sexual abuse investigations in the 
CAR in Dekoa.
    This was essentially instructed to identify what lessons 
could be learned but was never released. Instead, it was made 
to disappear and has been concealed even from the OIOS staff 
for whom it was written, casting serious doubts on how reliable 
the U.N. investigations were.
    In 2017, the secretary general announced a new approach to 
combatting sexual exploitation and abuse. On closer inspection, 
however, this is not a new approach at all. It continues with 
the same mind set as before and is doomed to fail for four 
basic and fundamental reasons.
    No. 1 is that the U.N. continues to ignore the fact that 
sexual exploitation is criminal. Second, the U.N. does not want 
to recognize that effective deterrence of any criminal conduct 
is directly related to the likelihood of the offender being 
held accountable. And three, the U.N. still wants to believe 
that raising awareness of the conduct being criminal will 
somehow deter it. It will not.
    [The prepared statement of Mr. Gallo follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. We are going to move on.
    We need to--you passed your 5 minutes.
    Mr. Gallo. I am sorry.
    Ms. Bass. You will have an opportunity in the Q&A to 
continue to make your points.
    We are going to move into questions and answers with the 
members that are here. I will begin and we will each take 5 
minutes and be consistent with that as well so everybody can 
have an opportunity to ask questions.
    Why do not I begin by speaking with Ms. Holt? And you were 
talking about the funding and, you know, I think--I wanted you 
to clarify something that I am not sure if I heard you say.
    I know I am concerned that Congress has capped the U.S. 
peacekeeping assessment at 25 percent and I wanted to know the 
impact of the cap. But I thought you said even before talking 
about that the resources were being reduced on the U.N. level 
as well, not even including what the U.S. was doing. Did I hear 
you correctly?
    Ms. Holt. United States is not the only country but the 
U.S. is probably the largest country that has outstanding 
obligations to the U.N.
    There are a few issues, as you noted. One, the 
congressional cap, which was initiated, roughly, 20 years ago 
and has been lifted repeatedly by Congress was meant to help 
reduce our assessment. Those negotiations just happened last 
year and for some reason the administration was not able to 
align the actual rate which we pay through negotiations with 
our U.N.--through the U.N.
    So Congress faces a problem. The cap will continue to 
accrue arrears. It is about $750 million today and it is 
approaching a billion by the end of the year.
    Ms. Bass. Who are some of the biggest, you know, offenders 
in terms of not making their contributions?
    Ms. Holt. Well, the secretary general has put out a report 
with every single country and the amount they owe. The U.S., in 
my understanding, is the largest, and I did not study it to 
understand the way to rank the countries. But I would be happy 
to, maybe Paul knows.
    Ms. Bass. Dr. Williams.
    Mr. Williams. Yes. The U.N. secretary general's report said 
the next largest culprits, if you like, were Brazil, which owed 
$243 million, Ukraine $108 million, Venezuela $50 million, UAE 
$38.7 million, then Belarus, Japan, Mexico, Argentina, and 
Greece. They were the top 10.
    Ms. Bass. And I also think one of you--and I am not sure if 
it was Ms. Holt or Ms. Das--talked about the AU contributions. 
And so my question is what does the AU contribute.
    Was that you, Dr. Williams, that said the AU does not 
contribute?
    Mr. Williams. The African Union contributes in terms of 
African Union members.
    Ms. Bass. Right.
    Mr. Williams. So the 54 members of the AU that are also 
members of the U.N. contribute to the U.N. peacekeeping budget. 
But the African Union has also just recently set up a new peace 
fund, which is trying to fund its own African Union operations 
and that is where the $105 million new resources has come from.
    But some African countries will be behind in terms of on 
time and in full in their payments as well. But they have very 
small percentage contributions to the peacekeeping budget. So 
it does not figure anywhere near the top 10 countries I just 
mentioned.
    Ms. Bass. What do you think that the U.S. could do to 
strengthen the African Union so that they get to the point 
where there is less reliance, frankly, on peacekeepers outside 
of the continent?
    Mr. Williams. There's a couple of things. No. 1 is to 
invest in the long term. So provide a stable set of 
relationships and platforms and mechanisms to allow everybody 
to know what they are doing over the longer-term period and by 
that I mean we need to look a decade or so ahead and prepare to 
enhance the capabilities of this organization.
    We do not have funding mechanisms at the moment to do that. 
It is only the U.N.'s peacekeeping financial mechanisms that 
provide that degree of stability, and because, as I just 
mentioned, the African Union is raising money to pay for its 
own missions at the moment. But it cannot pay for them all.
    Ms. Bass. Right.
    Mr. Williams. And that is where we are stuck. So the U.S. 
could therefore, I think, invest in that long-term relationship 
more sensibly.
    Ms. Bass. Since we have, you know, capped ours maybe 
resources could go to assist the AU. Did any of you else want 
to comment on that?
    Ms. Holt.
    Ms. Holt. Just one point. The U.S. has a very well-known 
global peace operations initiative, which comes through the 
peacekeeping account, and it was established in 2004 by the 
Bush Administration to train African peacekeepers and 
peacekeepers worldwide.
    So that is a long-range capacity building program that has 
had huge results.
    Ms. Bass. Thank you. Ms. Das and Mr. Gallo.
    Ms. Das. Just to add to what Tori was saying, the impact of 
arrears, we are seeing allies--Ethiopia, Rwanda--not getting 
paid for its contributions and they are doing the bulk of the 
work, as well as, you know, at the end of the day when 
helicopters are not being able to deploy, logistics as being 
affected.
    So it is really having an impact on the ground on what 
peacekeepers are able to do. So lifting the cap would be really 
recommended and I hope that we can pay our dues in full.
    Ms. Bass. Mr. Gallo.
    Thank you.
    Mr. Gallo. If I could answer the question the other way. If 
you look at the amount of money that is being spent, the Congo 
costs $1.2 billion. CAR and South Sudan are running about a 
billion each.
    All organizations lose money through fraud, waste, and 
abuse, and even if those missions are only losing 10 percent, 
that is $100 million a year.
    And it is my concern that there is inefficiency in the way 
that the money is spent.
    Ms. Bass. So I am just about out of time. But could you 
quickly say what do you think the solution is?
    Mr. Gallo. In terms of increasing accountability from the 
efficiency for which that money is spent, there are some 
peacekeeping missions which have been rolling on for years and 
years with no end in sight, and the question is why is the U.N. 
peacekeeping operations haemorrhaging money to maintain the 
organizations that are actually involved in the fighting and 
that is a question that no one will ask.
    Ms. Bass. So your answer would be more accountability?
    Mr. Gallo. It would.
    Ms. Bass. That is the first step that needs to happen? Is 
that----
    Mr. Gallo. Indeed.
    Ms. Bass. OK. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you very much, Madam Chair. Thank you 
again all for your testimony.
    You know, in July 2016 in South Sudan we all remember 
this--a compound called the Terrain compound was overrun by 
Salva Kiir's troops in Juba. The United Nations peacekeeping 
mission was asked to intervene. They were asked emphatically, 
including by the U.S. Government by our mission, and they would 
not do it.
    I went there a month later in August and met not only with 
Salva Kiir but many others. Asked for accountability but also 
met with the U.N. peacekeepers and they admitted that mistakes 
were made and they have made some improvements since, which is 
a positive thing.
    But then when you get other examples of where the U.N. 
peacekeepers, and I mentioned Bishop Nongo earlier, in the 
Central African Republic who--you know, he's speaking for all 
of the bishops of Central Africa in his testimony today. He 
wants the peacekeepers to have a better, as he points out, 
rules of engagement.
    They need to have enough of them, and that is one question 
I would ask. You know, we often see that there is a deployment 
number but there is usually a higher number of authorized slots 
that are unfulfilled. How are those numbers reached? Is it 
accurate? Do we need more? Less?
    You know, there are always guesstimates, I would suspect. 
So if you could speak to that issue, because I find that very 
disturbing. I mean, when I looked eyeball to eyeball with the 
U.N. peacekeeping leadership in Juba and then we went back the 
next year, the chair and I, and had another set of meetings, 
they were making improvements. But it is always like there is a 
whole lot of atrocity that happens in the interim.
    Earlier today we had a big hearing in the full committee on 
Kosovo, and UNMIK's terrible record there was highlighted. I 
asked my questions along the realm of UNMIK and their 
complicity in human rights abuse.
    So it is a problem and I would say to Mr. Gallo I had the 
hearings when we tried to hold U.N. personnel leadership to 
account on whistleblowers.
    To me, a whistleblower, if they are honest and sincere and 
they bring forth information, we need to put sand bags around 
them rather than have them put out of their job or put into a 
situation where they are in dire--you know, they will never 
move up, like a ceiling on their upward mobility.
    It was way back when Attorney General Dick Thornburgh 
appeared before our committee in 1980, and I was there, and he 
said how desperately they need IGs. Not IGs that are part of 
the system but IGs that are independent with a capital I, and 
we are still striving to get there. Hopefully, we are getting 
there but we are still striving to get there.
    But that is one reason why I think a lot of people, you 
know, just want to say if we are going to spend money--and I am 
a passionate believer in U.N. peacekeeping dollars--we need to 
do it in a way that is absolutely transparent, that they vet 
the individuals who are deployed.
    After I had those four hearings on what was going on in 
Goma and went there, I found that there was still a 
lackadaisical attitude. Jane Holl Lute and a few others were 
absolutely on the mark. But so many others was, like, well, so 
what.
    Somebody might be sent back from that mission when they got 
back to their country of origin. They were not prosecuted, and 
for a time they could even be put or redeployed at a future 
peacekeeping mission. I think that has changed.
    So along those lines, I would also ask rapid DNA technology 
has been shown to be very effective in addressing sexual 
assaults. It could also help stop trafficking in persons.
    It also could, if we were to do rapid DNA technology for 
every peacekeeper, when there is an allegation there is a way 
of proving at least in a paternity effort whether or not they 
are the ones who are responsible. I mean, it could also have a 
chilling effect that they know that they will be discovered and 
they will be prosecuted hopefully by their home country.
    Finally, let me just ask you--I have a lot of questions--
but in--I would ask unanimous consent, Madam Chair, that Brent 
Schaefer's----
    Ms. Bass. Without objection.
    Mr. Smith [continuing]. Testimony be included from the 
Heritage Foundation.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. He makes an excellent point that even at 25 
percent the U.S. pays more than 182 countries combined for 
peacekeeping. And, again, a lot of what we do never gets on the 
ledger. AFRICOM, all that we do there, never on the ledger of 
what we are doing to try to mitigate war and conflict and to 
promote peace and humanitarianism.
    Airlift--all the things we do--which never is on that 
assessment page. Also, he points out that Brunei, Kuwait, 
Qatar, Singapore, and the UAE, despite having a per capital 
gross national income more than twice the world average, they 
are assessed peacekeeping dues that is equivalent to the poor 
developing countries.
    So that needs to change so that there is more partners 
contributing to this, and your thoughts on that. I am not sure 
if that is because they are part of the G-77 or whatever it 
might be.
    But it seems to me a better assessment of who is capable to 
pay and, again, I would go to 30 percent, whatever it takes. 
But there are other countries that need to be providing 
additional money. So DNA rapid technology--if you could speak 
to that, and also the other questions that I raised.
    Yes, Ms. Holt.
    Ms. Holt. I would like to comment briefly, if you do not 
mind, on the South Sudan case. It was horrific, the attacks in 
Juba.
    Mr. Smith. Just to interrupt briefly.
    Ms. Holt. Yes.
    Mr. Smith. I found out after I started raising it, and 3 
days before I got on the plane to go over there that a member 
of my--of a humanitarian organization from my district was one 
of the women who almost got raped. I mean, that is how bad it 
was, and luckily, you know, she was resisting--heroic, strong--
two guys with AK-47s who actually shot and said, you know--and, 
luckily, the door was broken in and these guys were stopped. 
But that was Salva Kiir's people. But the U.N. peacekeepers, I 
say again, would not respond.
    Please.
    Ms. Holt. I mean, what you are pointing to is this was an 
attack by the government forces. But the mission failed to 
intervene and the civilian--there is a number of Americans 
involved had called and were reassured peacekeepers were on 
their way.
    We pursued this deeply when I was in the government. We had 
a very strong--General Patrick Cammaert did a intense review 
with a whole range of things that we then pressed to put in 
place.
    So I will not argue that--it was never acceptable but it 
has pushed for a whole new set of protocols so the contingents 
not be in doubt. This is one of the tensions. When missions go 
in and think they are partnered with the government but then 
government forces turn on civilians or even on the peacekeeping 
missions themselves, as they have in South Sudan, contingents 
get confused. They are often outgunned by the military forces 
of the other country in the country that they are serving in.
    So it is a horrific example. But I will tell you that it 
was one that went to the highest levels of our government and 
other governments, which is why U.S. engagement on these 
issues--modernization, reform, and the diplomatic muscle that 
Congress and the American government can bring--is so critical 
to continuing to push for these reforms.
    I will just say, briefly, also I have not had a chance to 
read Brett Schaefer's testimony. He is very knowledgeable on 
these issues. But I will say it would be worth this committee 
getting a briefing from the administration on why, given some 
of the points you have pointed out, we were unable to win over 
diplomatic support to reduce our assessment rate.
    I did not mean to take up the whole time.
    I was just going to say because there could be a case made 
and the best way to do it is to start now with that diplomatic 
push, and I do not understand why the administration was not 
able to do that. It is a problem.
    Ms. Wild [presiding]. OK. Go ahead.
    Ms. Das. Just to comment on the tragic attack at the 
Terrain Hotel, I have been there before. I know how close it is 
to the peacekeeping base, and just knowing that peacekeepers 
did not respond it was a failure.
    But many things have happened since then, including pretty 
much immediately after that attack happened the force commander 
that did--there was a breakdown in communication--the force 
commander was fired and then there was an independent 
investigation that Tori was mentioning which led to 
recommendations on that this does not happen again.
    You know, this is--when peacekeepers are not deployed at 
the right numbers they are--we do not get to protect as many 
civilians as we should. But this was a real failure and the 
U.N. has acknowledged that and they are doing--they are trying 
to do better.
    And just on the DNA testing, we know that a part of the 
reforms are happening and so looking into DNA testing for 
paternity claims. And so that is something the U.N. is already 
pursuing, and we could probably get you more information on 
what is out there on that.
    Mr. Williams. Thank you. On the 25 percent and then the 
vacancy rates in force generation, I have read Brett Schaefer's 
testimony and I agree with him on this. There is a very good 
case politically for lowering the United States rate below 25 
percent. It is politically unwise for an organization like the 
U.N. to rely so much on one member State.
    The question, as Tori raised, is why have we failed 
diplomatically to get our position there accepted at the U.N. 
General Assembly, and I would submit that a good diplomatic 
strategy here is to get the 54 members--African members of the 
U.N.--on side in part by giving in to their requests that we 
support AU peace operations through the U.N. Security Council 
and link those two issues. I think diplomatically that would 
make sense.
    On the force generation issue, peacekeeping missions need 
both numbers and capabilities. So you have to get the numbers 
of soldiers, police, and civilians. But you also need 
capabilities, logistics support, ISR support, medical, special 
forces, increasingly, and military engineering.
    Why we need or what we need really is a much better bench 
because the accountability issues that have been raised means 
the U.N. is often desperate to fill missions without the top 
tier troop-contributing countries providing troops and support.
    So we need a broader bench of countries that can provide 
these types of capabilities. That, unfortunately, is a long-
term process of building up militaries and police forces in 
other countries and we have done that well through programs 
like the U.S. Global Peace Operations Initiative.
    But it takes time. But we are in a much better situation 
with the U.N. in 2019. The bench is pretty strong. Countries 
like Mongolia that you have already mentioned that have come 
from literally nowhere, but others--Kazakhstan, Serbia--these 
are all good peacekeeping countries now that did not really 
exist on the radar screen 20 years ago.
    The problem is the political acceptability. It is the U.N. 
Security Council that pushes the numbers down and the 
capabilities of peace operations down for political and 
financial reasons.
    So it is hard for the secretariat to make an objective 
assessment of how many troops and capabilities are needed 
really to protect civilians in South Sudan or Congo because 
that number is way higher and the capabilities are way higher 
than are seen as being politically or financially acceptable at 
the Security Council.
    Mr. Gallo. I think the remaining question is the one you 
raised on DNA testing. In addition to that, there is no 
plausible argument against it that I will suggest.
    But the investigative capacity has required a first 
responder ability. The U.N. at the moment does not have that, 
and the question of DNA samples have to be taken as soon as 
possible and not stored for a year so that they are useless 
when they are analyzed--the form of investigation.
    And, of course, the other thing is that the international 
criminal court works on the basis of command responsibility and 
you hold the first commander accountable for misconduct by his 
troops.
    The United Nations, for internal purposes, for misconduct 
does not do that.
    Ms. Wild. Thank you.
    Ms. Das, I wanted to direct this to you. One of the 
benefits of the U.N. peacekeeping operations is that it 
promotes institutional stability and fragile States, and 
democracy building by outside forces can be met with 
significant opposition by locals.
    In those countries that have shown democratic potential, 
what can be done to avoid democratic backsliding and who is 
giving institutional and electoral guidance and how do we make 
sure that the democratic framework being established addresses 
local needs and challenges?
    Ms. Das. Thank you for the question, Congresswoman. We have 
seen the U.N. support democratic elections in Central African 
Republic. We have seen it in Co-te D'Ivoire, Liberia, where we 
have helped government institutions build capacity and 
longstanding capacity that they continue to build resilience.
    So the U.N. peacekeeping is one partner. But there are 
other U.N. agencies including UNDP that play a critical role on 
helping to establish democratic practices.
    And this is another way that when the U.S. is engaged we 
push for democracy in these places and it is really important 
that the U.N. peacekeeping continues on this. I mean, the 
Central African Republic is a great example of where we have 
seen successful transfer of power from a transitional 
government and then having elections where the elected leader 
is trying to do the right thing.
    It needs support from the U.N. and from the U.S. to 
continue--it is a very fragile State--continue to pursue the 
right things, the right--democracy and have--extend State 
authority.
    So that is one thing that U.N. peacekeepers have been 
working on is to support the government institutions to help 
extend State authority in that country.
    So that is one example that we have been working with the 
U.N. on quite a bit.
    Ms. Wild. And what kind of oversight does the U.N. have, 
for instance, in a country like Liberia where the peacekeeping 
missions were closed in 2018?
    Ms. Das. So there is a country team there that continues to 
work to support the government institutions and it is led by 
UNDP.
    So there is a continuing footprint of U.N. presence there 
to continue the work that peacekeepers have already built on 
and then to make sure that it does not slide back, as you had 
mentioned before.
    Ms. Wild. What kind of enforcement mechanisms do they have, 
if any?
    Ms. Das. I do not--I am not sure if there is an enforcement 
mechanism in the sense of boots on the ground. But there is 
definitely--you know, I think there is definitely support 
within the Security Council and others to make sure that the 
gains made by peacekeepers are trying to move forward and 
continued.
    Ms. Wild. And let me just ask you this. Well, actually, let 
me ask this of Dr. Williams or Mr. Gallo.
    While I appreciate the AU's utility of peacekeeping 
operations and I certainly understand why the AU peacekeeping 
operations may have more local legitimacy with host governments 
than U.N. operations, I think it is vital that the AU operate 
in a manner that is consistent with U.N. priorities, 
objectives, and policies.
    What are the best ways to give the AU autonomy in 
conducting peacekeeping operations while also retaining, 
implementing, and enforcing U.N. oversight?
    I will put that out there for either one of you or both of 
you.
    Mr. Williams. So there is two ways we can think about how 
to enhance the AU's accountability and performance on the 
ground. Option one is to let it do it all itself and to have no 
oversight mechanisms. Option two is to support the AU with 
multilateral legitimacy of a Security Council resolution 
authorizing its missions.
    And then if it comes with U.N. support, that has to meet 
what we call the HRDDP--the human rights due diligence 
policies--which means that any U.N. support that is given to 
the African Union has to come with the types of accountability 
mechanisms that Peter was talking about earlier to make sure 
the AU troops are acting in conformity with international 
humanitarian law and human rights law.
    And so I think that is the two real options here. And so 
the better one I think is to provide external support.
    Now, that has been happening on an ad hoc basis for about 
the last 10 years. And so when the African Union has asked for 
U.N. or partner support from the European Union or United 
States, we have then said to the AU that you need to improve 
your conduct and discipline policies.
    You need to produce a policy on sexual exploitation and 
abuse and how to reduce it. You need to provide policies on 
accountability across the board. In that, the organization, in 
my opinion, has made significant strides and progress over the 
last 10 years.
    It is still not perfect. But I think the best way to ensure 
that it gets better is to work, as I have said, through the 
U.N. and provide those types of accountability mechanisms that 
are built in.
    Ms. Wild. Mr. Gallo, did you want to add anything to that?
    Mr. Gallo. No, ma'am. You are asking a political question, 
which is outside the scope of my comfort zone.
    Ms. Wild. Thank you.
    Ms. Houlahan, I believe you are up.
    Ms. Houlahan. Thank you very much for the chance to speak 
with you all, and I really appreciated the conversation. I also 
serve on the Armed Services Committee and so I have the 
opportunity to watch the budgetary process for the DOD go 
through the Congress.
    And one thing that I have consistently heard through that 
NDAA process is the DOD and contractors alike will talk about 
the importance of consistency of funding and something, you 
know, not being erratic.
    And I know you guys, almost every one of you, had the same 
kind of plea was not only funding but consistent funding 
regular and predictable.
    My question is, in the DOD side of things we hear very 
specific examples of what happens when you do not fund on time 
or you do not fund to the proper amount--you know, steel plants 
shuttering, production lines of helicopters shut down, losing 
our resident labor unions--those kinds of things.
    I know that this is a quantifiable amount of money that you 
are asking for. But what happens when it does not happen on 
time? Can you give us some anecdotal stories of what happens 
when we do not get the funding that we are asking for?
    Ms. Das. Thank you for the question, Congresswoman.
    The first thing that happens is that troop-contributing 
countries do not get reimbursed for providing troops. So I had 
mentioned India, Bangladesh, Ethiopia. These are--Rwanda--these 
are our allies who do a bulk of the peacekeeping. They are the 
ones who send out their troops in harm's way.
    And then the second thing that happens is--one anecdote 
that we heard recently was a country that provided helicopters. 
Their helicopter was--needed maintenance.
    But because that maintenance was not able to be provided, 
that helicopter no longer deploys and that country no longer 
provides helicopters to peacekeeping, which is a main way a lot 
of these places in Africa do not have the necessary roads or 
places to get to. So helicopters are a vital resource that is 
lacking.
    And so these are some of the major things. But then, you 
know, even getting peacekeepers to project and leave their 
bases and do protection of civilians outside is really critical 
and not having that capacity because their logistics or their 
vehicles do not have the fuel or what not is really 
problematic.
    So these resources have critical needs that are not being 
met. But I will let my colleagues----
    Ms. Holt. I would just add this as to your report, maybe we 
could submit it for the committee's consideration. This is the 
report on the financial situation.
    Among the things pointed out in that report is that it 
looked like only two of the peacekeeping missions have a 
minimum cash reserve of 3 months of operating costs. So it puts 
them in an uncertain posture. And so some of it is also the 
psychological problems.
    So I would worry that if a mission faced a crisis such as 
Congresswoman Smith was describing in South Sudan, you know, 
would that impact the mobility because your fuel supply may 
have run out of the funding for that month. That's a 
hypothetical. But you can see how this would cramp the 
operational pace of the mission.
    I would also say by borrowing from troop-contributing 
countries to fund missions it also puts the U.S. in a 
precarious position for our own leadership. It gives every 
country that wants to push us aside a talking point. Like, why 
should we listen to you--you are not even paying your fair 
share.
    And so it is a wonderful way to distract from our calls for 
performance and accountability, modernization and reform. And 
so I would say that is another kind of substantive impact.
    And then, third, it suggests that we do not take these 
missions seriously. As a member of the council we vote for 
them. We often write the mandates ourselves. We have often 
trained many of the troops that go in. And so for us not to 
fund it is really confusing to other countries as well.
    Mr. Williams. Just to add one more point, it undermines the 
attempt to get that bench that I was talking about earlier 
because, like anything in life, you are disincentivized doing a 
job if you are not sure you are going to get reimbursed for the 
money that you are owed doing that and that is what we are 
doing to the world's biggest troop-contributing countries, as 
has already been mentioned.
    So we are, on the one hand, trying to get more effective 
and accountable missions deployed in the field but, with the 
other hand, we are taking away the money in reimbursement that 
we are giving to those peacekeepers that should be operating in 
the field.
    So it disincentivizes particularly the more least-developed 
and poorer countries where financial incentives are, you know, 
one of the factors.
    Mr. Gallo. Let me point out that there is a financial 
incentive for troop-contributing countries to provide troops to 
the United Nations.
    If the United Nations budget is short, the government--the 
TCC should still be paying its own troops on the ground. So it 
is not--it is not the direct cause and effect, and if you are 
telling me or if anyone is suggesting that the financial 
situation is so precarious that the--those troops cannot be 
deployed because they have not been paid by the host nation 
government, I would question the fitness for role--for being in 
a peacekeeping role in the first place.
    Ms. Holt. With permission, if I could just say one thing.
    Ms. Wild. Yes, go ahead.
    Ms. Holt. When I was in the State Department, an African 
country came to us and said, we have been asked to deploy. We 
took out a large loan to pay for not the troops but all the 
equipment they need to bring with them and have been delayed in 
the deployment and then the loan was due.
    So they were in a bit of a bind because they had put out a 
lot of funds for which it was not--they were not a wealthy 
country.
    So there are things beyond paying soldiers that actually 
are part of the budget.
    Ms. Houlahan. I appreciate your time. Thank you. I yield 
back.
    Ms. Bass [presiding]. Representative Omar.
    Ms. Omar. Thank you, Chairwoman.
    So my question really is, to begin with, Dr. Williams, I 
wanted to address your fourth recommendation. I do agree that 
it is a problem politically and logistically for the U.N. to 
rely heavily on the United States.
    The efforts of peacekeeping forces are too important to 
depend the whims of U.S. politics. We have seen the 
consequences of this administration that is outright hostile to 
international organizations and allies, and for those of us who 
believe in the importance of these organizations to figure out 
a more sustainable way is important.
    But one of the unfortunate realities has been that when the 
United States steps back its obligations, other countries do 
not step up.
    So I wanted to talk to you. Can you tell me a little more 
about what the strategy would be in encouraging African 
countries to step up on peacekeeping contributions and what 
that would look like? Is there a political will in Africa or in 
Europe or in any other country to pick up the burden if the 
United States keeps paying less in peacekeeping efforts?
    Mr. Williams. Thank you very much for the question. So 
there is a couple of ways to answer it. At the general macro 
level, we need to make this thing worth investing in.
    And so this thing--this enterprise of U.N. peacekeeping has 
got to be seen to be across the board of the U.N. membership 
something that works and can be effective and accountable and 
can do things that we really need to do. So that is the first 
challenge is selling it that way.
    That is undermined by our absence of the Ambassadorial 
positions and others at New York at the moment and by not 
paying our own contributions.
    The second part of this, though, is that when the U.S. 
retreats from its leadership others are stepping up and filling 
that vacuum. China is the key player here when it comes to U.N. 
peacekeeping.
    China's financial contributions have risen quite 
significantly over the last few years. It is now paying about 
15 percent of the U.N. peacekeeping budget and it has a quite 
different set of views of the types of things that U.N. 
peacekeepers should be doing in the field.
    And so the vacuum will not remain a vacuum for long. Others 
will fill it.
    And third, then, for the African countries themselves, they 
are stepping up or they are starting to step up now with the 
new peace fund that they are trying to develop indigenous 
sources of funding for their own missions.
    But in the short term, it is completely unrealistic to 
expect these countries to pay the nearly $1 billion, for 
example, that AMISOM costs in Somalia.
    My suggestion is that we make a sort of diplomatic quid pro 
quo or linking of these issues. The African Union wants us to 
support their missions through the U.N.
    The United States wants to pay less for U.N. peacekeeping. 
And so I am sure there is some diplomatic middle ground in 
there. So that is how I would approach that issue.
    Ms. Omar. That is great, and thank you for bringing up 
Somalia. That was going to be the sort of next question that I 
was going to ask in another, I think, important dynamic in 
peacekeeping is the discrepancy between peacekeepers, national 
police, and the military.
    If we use Somalia, for example, when you speak to Somalis 
they will mention the fact that peacekeepers get a salary of 
about $1,400 a month.
    And when the salary for the Somali military individually is 
$50 with the African Union peacekeeping mission in Somalia now 
drawing down, there is a lot of anxiety in the region within 
Somalia that is exasperated because people are trying to figure 
out what that looks like.
    And so I just wanted to know if you had any suggestions on 
how we should invest in building local capacity, what the 
transition--what are the best practices for a full transition 
to happen when AMISOM leaves Somalia, which I am guessing is 
happening pretty soon, and how do we invest in gaining the 
trust of the countries that we have peacekeeping missions and 
knowing that we have made the right investment so that they can 
now transition into guarding their own peace.
    Mr. Williams. Thank you. That is a difficult set of 
questions but I will try my best.
    The first point----
    Ms. Omar. We have a limited time so----
    Mr. Williams. Sure. AMISOM is not, in my opinion, going to 
leave nor should it leave Somalia completely anytime soon. But 
the issue will be can it reconfigure its size and its mobility 
over time.
    The current debate is looking to, about a year or so after 
the elections if they happen in Somalia in 2020 and 2021, 
AMISOM can start drawing a bit more down there.
    But it is not on the table to leave completely. Second, 
when it comes to the money the one thing we should not do is 
cut the budget to the U.N. support office in Somalia.
    So the Somalia National Army Forces that you mentioned and 
AMISOM get all their logistics and mission support coming 
through the U.N. support office in Somalia.
    So when we are saying here another effect of not paying our 
fees or dues at the U.N. is that UNSOS is undermined that means 
the Somali National Army and AMISOM is basically suffering less 
logistical support to conduct operations against al-Shabaab.
    So we need to maintain that. And then on the individual 
level, SNA troops are getting, roughly, or should get, I should 
say, about $250 a month. An AMISOM peacekeeper, at the moment, 
is getting about $800 a month. So I can see that their--the 
Somalis you mentioned earlier that discrepancy is real.
    Ms. Omar. Yes. Our records, what I have, says $1,440 a 
month for AMISOM.
    Mr. Williams. That is what the--no, the U.N. guard force. 
UNSOM, the U.N.'s political mission in Somalia, has a Ugandan 
guard force that are paid at the U.N. rate of, roughly, $1,400 
a month.
    The African Union peacekeepers in Somalia get a lower rate, 
a different rate, which is at the moment about $800 a month, 
because that is paid for by the European Union.
    As I said earlier, the African Union cannot pay its own 
money. So the European Union actually pays the AMISOM 
peacekeepers at a rate of $800 a month.
    Ms. Bass. Representative Phillips.
    And when we are done--when Representative Phillips 
finishes, I will go back to Representative Smith. But if 
anybody else after that on the committee wants to continue, we 
can certainly do that.
    Mr. Phillips. Thank you, Chairwoman Bass, and to each of 
our witnesses.
    My first question is about China, and with our diminished 
role or seemingly diminished role and increased interest by 
China throughout Africa, my question to each of you is are you 
seeing growing Chinese influence through the U.N.
    I believe China is now one of the largest troop 
contributors and, I think, the second largest funder of our 
peacekeeping efforts.
    If so, are you seeing it? If so, how, and then what are the 
implications in the near and long term?
    Ms. Holt, if you might begin.
    Ms. Holt. Thank you very much.
    I think each of us might have an aspect answer. China is 
aggressively moving forward to be seen as a leading country on 
peacekeeping. As you note, they are the largest member of the 
permanent members of the Security Council with, roughly, 2,400 
troops on the field, which is a huge change.
    When I was in government, we led a dialog with China in 
2009 and 1910 and at the time they had very small numbers and 
they mostly were building roads.
    Today, they have a diversity of capacity. Second, as you 
note, they have increased their financial contribution, and 
with this, frankly, comes voice and sway in the larger 
organization.
    The evidence that I know of is still somewhat anecdotal. 
But they did try and cut staff positions for protection of 
civilians and human rights during a budget committee debate and 
overview of peacekeeping missions.
    Usually the U.S. would be there and say that is 
ridiculous--no, we are not doing that. But they will continue 
to have a different vision for what peacekeeping missions 
should do in the field.
    They, traditionally, have not been as forward leading as we 
have on human rights, on protection of civilians, and ability 
to use force on behalf of civilians.
    So I think the trends are still working themselves out. The 
U.N. has turned to China for a number of major studies and one 
was quite forthright on the security of missions themselves, 
and I think that you see also a shift in these extra budgetary 
funding, sometimes for a good cause but it will give them more 
leadership capability and sway, particularly if the U.S. is not 
at the table and aggressively engaging in the way we are used 
to.
    Mr. Phillips. Thank you.
    Ms. Das.
    Ms. Das. Eighty percent of the Chinese peacekeepers are 
actually deployed in Africa and they have a 8,000-person 
standby force that they are eager to test out.
    Mr. Phillips. How large? I am sorry.
    Ms. Das. Eight thousand.
    Mr. Phillips. Eight thousand.
    Ms. Das. The standby force that is--that they have offered 
to the U.N. peacekeepers. And they are wanting to deploy their 
new technologies and peacekeeping and try different things out.
    So they are happy to deploy in these ways and, again, I had 
mentioned before the U.S. only provides 40. We do a lot of ways 
and, obviously, our financial contribution is huge.
    But, as Tori is mentioning, when the U.S. is not engaged in 
these conversations about budget cuts we have seen China try to 
take out positions on human rights or protections of civilians.
    And so it is really important that the U.S. continue to be 
engaged because China is happy to take that role and kind of 
push their own agenda forward in these discussions.
    So China's influence is rising and it is something that we 
should--the U.S. should be countering at the U.N.
    Mr. Phillips. Thank you.
    Dr. Williams.
    Mr. Williams. I would agree with everything you have just 
heard. I think it is spot on. I would just add one thing. I 
think China is learning at the moment how difficult U.N. 
peacekeeping can be.
    In Representative Smith's earlier question about UNMISS and 
Juba, China was one of the contributing countries that was 
caught up in those issues and it is facing a very difficult set 
of dilemmas that all the other U.N. contributing countries have 
faced over time.
    So it is learning. The way it is learning, though, is in 
part by putting more effort into doing this enterprise. It has 
now had a couple of force commander slot submissions so it has 
got experience about how to run these operations.
    It has increased over the years not just deploying 
engineers and logisticians and medical soldiers. It has been 
now deploying actually infantry battalions into Mali and South 
Sudan. So its military forces are getting more operational 
experience on the ground here.
    China, obviously, does not have the equivalent of NATO or a 
lot of overseas theaters to practice this. So I think it is 
learning through operational experience that it is getting in 
the peacekeeping missions.
    Mr. Phillips. Thank you.
    Mr. Gallo.
    Mr. Gallo. To further add on to that, the question of voice 
and sway, when the United States is not at the table China, 
clearly, has a very different approach to human rights.
    In our perception, human rights is imperative in building 
democracy and institution building, and if the function of 
peacekeeping is to, you know, make countries safe and to 
institute a lasting peace, that is something that has to be 
done because it cannot be separated from the human rights 
issue.
    And the other question to be looked at is look at the 
corruption cases being prosecuted by the FBI in New York 
involving Chinese corruption involving the U.N. and why is the 
U.N. not diligent in eradicating this corruption from the 
inside.
    Thank you.
    Mr. Phillips. Before I--Mr. Gallo, you have spoken on this 
on a number of times. But if we could wave a magic wand here in 
Congress where would we start relative to the oversight and 
anti-corruption efforts that you deemed so necessary?
    Mr. Gallo. With regard to oversight? There is no oversight 
of the investigation function in the U.N. So, basically, that 
means the U.N. carry out the most shambolic investigation that 
you have ever seen in your life and I can give you plenty of 
examples of this.
    And the legal system within the U.N. is only concerned with 
the process. There is no concept of the unreasonableness of the 
decision. So long as the U.N. can hold that the decision was 
made in accordance with the process, the legal system is not 
concerned with what that decision is, and that is what leads to 
some of the most ridiculous things that we have ever seen and 
that is what leads to the lack of whistleblower protection and 
that is germane to the corruption inside the U.N.
    U.N. reform on a global basis is a massive undertaking and 
a daunting international challenge. Reform of the investigation 
function is a lot more manageable, a lot more feasible and will 
affect the culture of the organization.
    Mr. Phillips. Thank you. I yield back.
    Ms. Bass. Thank you, Mr. Phillips.
    Mr. Smith.
    Mr. Smith. Real quick, if I could.
    Mr. Gallo, you had mentioned one Wu Hongbo, a former U.N. 
undersecretary general for the diplomatic Department of 
Economic and Social Affairs at the U.N. who, in a Chinese 
television appearance, told how he used his position to protect 
Chinese national interests and had a Uighur Muslim politician 
and human rights activist barred from the U.N.
    Those examples--I mean, I held a hearing last year on the 
Uighurs. We had a woman who had been severely tortured and when 
she asked her torturer why in China, in the autonomous region, 
Xinjiang, why it was happening, he goes, because you are a 
Muslim.
    And yet many of these people--cannot say certainly, but 
many like Wu Hongbo, carry that mind set into the United 
Nations, which I think is a--and you might want to speak to 
that.
    But you also in your testimony talked about the Dekoa 
investigation and how children fathered by peacekeepers and a 
subsequent U.N. investigation with regard to paternity claims, 
if you might want to elaborate bit on that. I am not sure you 
did so in your opening comments.
    And, again, as I asked earlier, whether rapid DNA tests 
have helped insofar as the spoilage of the evidence. I would 
also ask Secretary Guterres has launched the Action for 
Peacekeeping Initiative. How do you feel about it, all of you?
    Is it a good idea? Does it have flaws? Is it well-meaning 
but not necessarily effective enough? Please speak on it.
    And then, finally, is there a conflict or an emergency 
somewhere on the planet that cries out for a deployment now or 
is on the precipice of being in need of such a deployment of 
U.N. peacekeepers?
    Mr. Gallo.
    Mr. Gallo. If I can start with the Dekoa investigation. I 
cannot answer that question fully because neither I nor anyone 
else has seen that report.
    It exists, but we do not know what is in it and there are 
all sorts of rumors going around, and the one about the DNA, 
and I was told and I had absolutely--I mean, I cannot testify 
to this because I do not know it but the story is that DNA 
samples were taken and stored in a drawer for a year.
    So when they were tested they were useless and that allowed 
the investigation to conclude that the DNA results did not 
establish paternity.
    Now, I do not know if that is true or not and that is the 
importance of the Dekoa report and that is why it has not been 
released or I believe that is why it has not been released.
    Now, I understand there is a lot more to it. But it is a 
bit a holy grail. So I am afraid you are going to have to find 
that one for yourself.
    Mr. Williams. I will leave the action for peacekeeping to 
my colleagues who are better placed to answer that. But on 
your--is there a crisis anywhere on the planet, in Africa I 
think the two places that concern me most would be the sort of 
the spillover effects from Mali.
    And so, particularly, in the Sahel we have seen a lot more 
Islamist fighters moving particularly into Burkina Faso, Niger, 
Mali, that area. So the spillover effects that the U.N. 
peacekeeping mission cannot deal with because it is confined to 
Mali is one place.
    The second place in Africa for me that is very worrying is 
Cameroon and the violence that we have seen over the last 18 
months or so there.
    Where the government is problematic elsewhere in the world 
it is Ukraine and Yemen are the two places where we are 
actively debating whether U.N. and what type of U.N. types of 
operations might be helpfully deployed there.
    Ms. Das. Just carrying off of what Paul had mentioned I 
think concerns Ukraine and there has been debate about 
peacekeeping there. But because of where the Security Council 
is, it is very doubtful that there would be anything happening.
    And another concern in Africa would be Burundi. Their 
government has been very strategic about pushing the U.N. out 
and making sure that there are not human rights or anybody kind 
of watching what's happening there. So that is a place I would 
be worried about.
    Regarding action for peacekeeping, it is a really 
innovative idea took hold of the Security Council, the troop-
contributing countries as well as the financiers, the U.S., 
together hold them accountable from when you deploy 
peacekeepers in making sure that there is a political process.
    So peacekeepers are being deployed to some of these places 
for long times because the political process or political 
solution has not come to fruition.
    So making sure that these three--these counterparts are 
working together that there is a political solution so we can 
end some of these peacekeeping missions. So it is really about 
the implementation and, you know, we are very hopeful that this 
will move forward some of these missions that have been 
longstanding.
    Ms. Holt. I will just add to the excellent comments. On the 
newest A4P agenda for peacekeeping, it has, as been described, 
pushed back to the politics a little. If you have a weak peace 
agreement, the best peacekeeping in the world cannot tape it 
back together again. And so some of that is reinvesting in the 
diplomatic and the negotiations behind the peace agreement.
    And I will suggest to you, given where your interests are, 
there is a role for Congress to even raise that politically and 
help.
    I was in New York a few weeks ago and I got lobbied by a 
member State to say, this is a great platform. You folks in the 
outside community need to be helping us--basically, implement 
these reforms, and I am, like, OK.
    So I think there is some momentum behind it, and with 
support from countries like the U.S. and others, it is a 
continuation of this 5-year effort for really getting serious 
about modernizing and reforming in the field, including on 
protection of civilians, sequencing, and basically making 
missions fit for purpose.
    I will say as far as the new places my colleagues have 
mentioned, Yemen in particular, there has least been an 
observer team sent out to figure out what the future might 
hold.
    We would all have long-term hopes for places like Syria. 
Countries do not always invite the U.N. in, and I would put 
Venezuela on that list right now, and then also we'll see what 
other parts I would concur, and Cameroon it is quite curious.
    My last point might just be briefly the U.N. is a living 
breathing organization. Just like Congress it is full of 
people. People who want to basically do well and do better. But 
they need push and they need help and they need support.
    So it is not whether--I think much of the problems we have 
heard on accountability and corruption it requires governments 
like ours and outsiders like us to push in and do the best they 
can and I think that is part of our role.
    Thank you.
    Ms. Bass. I think it is like Congress.
    [Laughter.]
    Ms. Bass. I am just----
    Ms. Holt. May I clarify for the record? That was not about 
corruption. That is about the ambition.
    Ms. Bass. No. No. You know----
    Representative Omar.
    Ms. Omar. Thank you. I just felt like my last question was 
not answered. So I will rephrase it and see if we can start 
with Ms. Holt and then maybe get all three of you on the 
record.
    So the peacekeeping mission in Somalia has now been in 
effect for 12 years. Oh my God, it is 12 years. And I just 
wanted to see if you would agree that there has been efforts 
made to strengthen the police force, the military force within 
Somalia so that there could be a process set up for success 
once the peace mission ends.
    Was that always the plan that this will ultimately end at 
some point and were there mechanisms--are there mechanisms put 
in place for that to happen?
    And then the second piece of that question is that because 
there is this gap in compensation for whether it is U.N. or AU 
or the local military, we hear reports--newspaper reports that 
some of the military or the police within Somalia sometimes 
might--because they cannot--they are not getting paid for 
months sometimes that they might sell their weapons to militia 
or maybe even terrorist organizations like al-Shabaab--is there 
conflict in that and could their remedy be to help in trying to 
give them proper compensation?
    Mr. Williams. I will answer it this time.
    Ms. Omar. Yes. Whoever wants to take and then the three of 
you will----
    Ms. Holt. I will make some points, Paul.
    Just a minor distinction. It is often said it is peace 
keeping in Somalia. But the distinction I might make it is a 
Chapter 7 authorized peace enforcement mission. It is not led 
and run by the United Nations even as it is authorized by the 
Security Council and the African Union.
    It is able to use force to achieve its aims, which is 
including going after al-Shabaab. So I just want to make that 
distinction between most of the missions we are describing 
today, which are invited in with consent and use force in 
defense of the mandate to protect civilians themselves and 
their--so one is able to do war fighting, the other is not.
    And as I understand it, you know, the aim has been that 
this peace enforcement mission works alongside the U.N. 
political office, has U.N. logistics, and there is a U.N. 
country team which is focused on development and humanitarian 
enterprises.
    So it is not exactly a peace keeping mission. But the idea 
was if Amazon could create a secure and stable environment, it 
should be handing off, as you describe, to local police, work 
with local communities, have governance take root, and we were 
trying to encourage all of this to happen simultaneously.
    Professor Williams will know better than I the state of 
play. The gap that was always, unfortunately, well recognized 
was you did not have enough capability coming in behind to then 
play that stabilizing role for police and rule of law, and to 
work appropriately with the communities which----
    Ms. Omar. And that lack of capability is with the country 
or with----
    Ms. Holt. Probably a combination. Amazon cannot bring 
everything with it and the government was still, as I 
understood, working to try and build out and work also with 
local authorities. So I think that is a work in progress.
    Mr. Williams. I would agree with everything said.
    Just to add, one is that AMISOM has not even reached year 
zero in the world of normal peace keeping, and what I mean by 
that is all these other missions we have talked about normally 
deploy after a cease-fire or after a peace agreement.
    There is no peace deal in Somalia and there has not been. 
So the 12 years that AMISOM so far is--we are still not even at 
year zero for peace keeping--which is why fatigue might be 
setting in.
    Second, as Tori mentioned, AMISOM is basically a 
conventional military force that is trying to degrade a network 
transnational terror network in the form of al-Shabaab.
    And so there is no way that a conventional force like 
AMISOM is able to militarily defeat al-Shabaab. It relies 
ultimately on trying to stabilize the recovered areas that al-
Shabaab used to control and that requires police, 
administrators, civilians, and that is where the Somali 
government and the Federal member States have been in short 
supply.
    But to your final--to your question and, finally, about has 
AMISOM boosted local police forces and the army, yes. Over that 
12 years, there is no comparison.
    If you look at the 12-year period, the Somalian national 
army, the State police forces and the regional police forces 
and also the Darwish and the militia groups in Somalia, they 
are in a much better situation to deal with these issues now 
than they were 12 years ago.
    But have they reached the level where you would want to 
pull AMISOM out in the last couple of years, as we talked 
about, I do not think we have reached that stage yet.
    And yes, the SNA are sometimes guilty as are the regional 
forces of selling ammunition, food supplies, rations, and other 
things.
    They have just recently completed their biometric identity 
data base for the Somalian national army which quite--it is 
amazing if you think about it. Until this year, we did not know 
who was in the Somalian national army. And if you do not know 
who is in the army we cannot do all the other things 
subsequently.
    So that has only just happened but that is a sign of 
positive progress there. Now the job is to pay them through, 
basically, mobile phone and secure banking networks linked to 
their biometric IDs and when they are paid they can properly 
focus on pushing back al-Shabaab and not on some of other 
issues that they have unfortunately strayed into previously.
    Ms. Omar. I know we have to go, but can I ask one more 
question? OK.
    And this question is for Mr. Gallo. I know that I would be 
in trouble if I did not--in talking about accountability and 
oversight, not bring his up with many of my constituents.
    There is the question of rape and sexual violence with some 
of the peacekeepers in Somalia and the process of 
accountability has not really been quite transparent and I 
wonder in your conversation about waste and fraud does the 
other kind of tragedies that sometimes might be caused by those 
that are deployed by the U.N. to engage in peace keeping go 
along the same line?
    Mr. Gallo. Ma'am, I mentioned in my written statement my 
concern about the U.N.'s lack of concern with known cases of 
corruption in Somalia.
    In 2015, I believe my former office conducted a number of 
investigations and discovered $0.80 on the dollar of aid money 
going into Somalia was being lost or was otherwise unaccounted 
for.
    We know that that was--there were connections in that case 
to al-Shabaab and the U.N. was simply not interested in 
pursuing it.
    What can I, as an individual, do about that other than to 
tell you that it exists and that it happened?
    Ms. Omar. So only 20 percent was going to do the work and 
80 percent----
    Mr. Gallo. Yes, between 70----
    Ms. Omar. We do not know--it could have gotten into the 
hands of a terrorist organization like--and there is no 
accountability measure for it?
    Mr. Gallo. Well, it was even worse than that. As I 
understand it, OCHA received these reports and stuck them in a 
bottom drawer for 3 months and refused to tell the member 
States, because if the member States knew about it they might 
reduce their contributions for the following financial year.
    But that is the culture of the U.N. There is no 
accountability. Nobody's career is going to be harmed for doing 
something like that.
    Ms. Omar. But yes, thank you for pointing that out. I was 
not really here when you gave your testimony. I think it is 
important for us to see clarity in reports like that and make 
sure that that level of corruption is not being perpetuated 
without any remedy for it.
    But if one of you wants to help address maybe what 
transparency and accountability had looked like for the cases 
of rape by AMISON within Somalia or any of the countries where 
they are doing peacekeeping work.
    Mr. Gallo. I can tell you how the system works.
    Ms. Omar. I was going to have--yes.
    Thank you.
    Mr. Williams. Thank you. Yes, the statistics are right. 
Transparency International has put Somalia as the most corrupt 
country for the last 11 years or so. The figures of 70 percent 
or so disappearing were normally, at least according the U.N.'s 
monitoring group reports, from about the 2012-13 period and it 
has got better since then.
    The fact that a lot of that money is disappearing, though, 
does not automatically mean it has ended up in the hands of al-
Shabaab. The vast majority of this just means we cannot track 
it financially in the normal ways that we would track accounts.
    But that was because Somalia did not have a finance 
ministry and a central banking system that worked. So the money 
not being traced did not automatically mean it was going to 
terrorism actors like al-Shabaab.
    On AMISOM, yes, there was--allocations were seriously 
raised against AMISOM troops in 2014 by Human Rights Watch 
researchers and reports, and they made various allegations 
about SEA and rape in some cases.
    The African Union conducted an internal investigation 
looking into that, the results of which were published 
subsequently in 2015. But more to the point, what has happened 
in practical terms is Uganda started as the main troop 
contributing country in AMISOM.
    It started to hold court marshals in Mogadishu itself for 
two reasons--one, to obviously, reiterate that this is not 
acceptable behavior and there would be consequences, but 
second, this would need to be done on Somali territory so that 
Somalis could see the impact of the African Union actually 
trying to promote justice and accountability here, and those 
things continue to this day.
    Ms. Omar. Go ahead.
    Ms. Das. Just to add to what Paul had mentioned, not 
necessarily for AMISOM but just in general, in 2015 the 
secretary general put together an online data base. So every 
allegation that was ever reported is in this data base and 
where they are in the reporting, so in their investigation as 
well as what--have they been prosecuted and what the justices 
look like.
    In 2016, the U.S. put together a resolution called 2272, 
giving executive power to the secretary general to remove any 
troops that are doing systematic wide abuse. So this has been 
implemented in Central African Republic where the Republic of 
Congo and the Democratic Republic of Congo both countries were 
repatriated from that country.
    And then Congressman Smith mentioned Jane Holl Lute. She is 
looking at sexual exploitation and abuse across the U.N. 
system, not just within peacekeeping. So it is--you know, we 
are looking at UNDP and others. It is something that this 
secretary general is very focused on and addressing this.
    And then, you know, in the last 2 years we have seen the 
numbers decrease significantly. In 2016, there was 103 cases of 
SEA--sexual exploitation and abuse--by peacekeepers. That has 
dropped to 50.
    And, last, it is really important for the secretary general 
that we are assisting victims. So there is a victims rights 
advocate, Jane Connors, who reports directly to the secretary 
general, and on top of that, she has victims' rights advocates 
that are embedded within the mission, so making sure that 
victims have access to--access to legal services as well as 
health services on the ground.
    But any case--one case of sexual exploitation and abuse is 
one too many by peacekeepers.
    Ms. Omar. Well, thank you all for your testimony. I think, 
you know, we all understand how valuable--I mean, I speak from 
firsthand experience how valuable the work that international 
organizations do are.
    And to Mr. Gallo, I would say thank you so much for your 
testimony and for really seeking accountability. I do not 
believe that we should throw the baby out with the bath water 
and I think that there are a lot of people who are very much 
interested in being advocates for accountability and 
transparency and seeing where we could create reforms and where 
we could be truth seekers.
    Again, I know this has been very informative for me and 
probably for a lot of our committee members and I do want Ms. 
Holt to take you up on that offer of going with you and seeing 
what the work looks like on the ground.
    Thank you.
    Ms. Bass. Once again, I want to thank all of the witnesses 
for being here today and the meeting is now adjourned.
    Mr. Gallo. If I could interject with a clarification, 
Chairman, the conduct and discipline website which Ms. Das 
refers to does not list all of the allegations.
    It lists the investigations. The United Nations does not 
publish the numbers of complaints received. I cannot remember 
the General Assembly resolution which mandates it. But there is 
a requirement to report to the GA the number of sexual 
exploitation and abuse cases.
    The U.N. defines case as one which is being investigated, 
and what happens is that the vast majority of these complaints 
are screened out at what they call the assessment phase.
    So we do not know the number--the total number--of 
complaints that are received. And with regard to the victims' 
rights advocates, the problem there is that the United Nations 
definition of a victim is someone who has had a case--whose 
sexual exploitation and abuse has been determined by a U.N. 
investigation. And if you look at the statistics of them, they 
are tiny.
    Ms. Bass. Thank you very much. I appreciate it.
    [Whereupon, at 3:56 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
